BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Reply Brief
for State Petitioners in 19-1257, Mark Brnovich,
Attorney General of Arizona, et al. v. Democratic
National Committee, et al.,
19-1258, Arizona
Republican Party, et al. v. Democratic National
Committee, et al., was sent via Next Day Service to the
U.S. Supreme Court, Next Day and e-mail service to
the following parties listed below, this 12th day of
February, 2021:
Marc Erik Elias
Perkins Coie, LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 434-1609
MElias@perkinscoie.com

Counsel for Democratic National Committee, et al.
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com

Counsel for Arizona Republican Party, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6023
JAmunson@jenner.com

Counsel for Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
Joe .Kanefield@azag.gov

Counsel for State Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 12, 2021.

Do;ina J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'

[seal]

JOHN D. GALLAGHER
r~otary Public, State of Ohio
My Commission Expires
February 14, 2023

